Office of Inspector General


November 29, 2010

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Director, Office of Inspector General/Iraq, Lloyd J. Miller /s/

SUBJECT:             Survey of Security Incidents Reported by Private Security Contractors of
                     USAID/Iraq’s Contractors and Grantees
                     (Report Number E-267-11-001-S)

This memorandum transmits our final report on the subject survey. We have carefully
considered your comments on the draft report and included your response, without attachments,
in Appendix II of the report.

The survey is not an audit. The report contains five recommendations to USAID/Iraq to assist in
improving oversight of their private security service subcontractors.

On the basis of information provided by the mission in its response to the draft report, we
consider that both a management decision and final action have been taken on
Recommendations 2 and 4. Management decisions on Recommendations 1 and 3 can be
reached once USAID/Iraq and the Office of Inspector General/Iraq agree on a firm plan of
action, with target dates, for completing the implementation of the two recommendations. We
added a new Recommendation 5 subsequent to the mission providing its response to the draft
report, and consequently this recommendation does not have a management decision. Please
provide written notice within 30 days of any actions planned or taken to implement these
recommendations.

I want to express my appreciation for the cooperation and courtesies extended to my staff
during the survey.




U.S. Agency for International Development
USAID/Iraq
APO AE 09870
www.usaid.gov/oig
CONTENTS
Background ................................................................................................................................. 1

Survey Findings .......................................................................................................................... 4

     Partners Reported 94 Security Incidents ................................................................................ 5

     Reporting of Security Incidents to USAID/Iraq Was Incomplete ............................................. 6

     Records of Security Incidents Were Incomplete ..................................................................... 8

     USAID/Iraq Agreement or Contracting Officer’s Technical
     Representatives Were Not Aware of Responsibilities............................................................. 9

     Embassy Baghdad Has Not Issued Instructions in Accordance With
     Regulation Implementing Statutory Requirements................................................................ 10

Evaluation of Management Comments................................................................................... 12

Appendix I—Scope and Methodology .................................................................................... 13

Appendix II—Management Comments ................................................................................... 16

Appendix III—List of 94 Serious Security Incidents .............................................................. 20

Appendix IV—Key Statutory Requirements in Sections 862 and 864 of the
National Defense Authorization Act for Fiscal Year 2008, as Amended.............................. 23

Appendix V—Interim Final Rule, 32 CFR Part 159 ................................................................. 29
BACKGROUND
Private security contractors (PSCs) operating in Iraq provide security services that include the
protection of individuals, life support, office facilities, and nonmilitary transport movements.
USAID/Iraq does not maintain any direct contracts with PSCs; security services were procured
by the mission’s implementing partners (contractors and grantees), who have primary oversight
responsibilities for their security providers. Nevertheless, in managing its contracts and grant
agreements, USAID/Iraq has some degree of oversight for private security activities. In
addition, Section 862 of the National Defense Authorization Act for FY 2008 (NDAA FY 2008) 1
establishes a statutory scheme for oversight of all PSCs in areas of combat operations,
specifically including Iraq and Afghanistan, through required regulations in subsection (a) and
mandatory insertion of contract provisions in subsection (b). Section 862(a) requires that the
Secretary of Defense promulgate regulations on the selection, training, equipping, and conduct
of PSC personnel that meet specified requirements. Under Section 862(a)(2)(D), these
regulations must establish a process under which contractors are required to report all incidents
in which:

   A weapon is discharged by personnel performing private security functions in an area of
    combat operations.
   Personnel performing private security functions in an area of combat operations are killed or
    injured.
   Persons are killed or injured, or property is destroyed, as a result of conduct by contractor
    personnel.
   A weapon is discharged against personnel performing private security functions in an area
    of combat operations or personnel performing such functions believe a weapon was so
    discharged.
   Active, nonlethal countermeasures (other than the discharge of a weapon) are employed by
    the personnel performing private security functions in an area of combat operations in
    response to a perceived immediate threat to such personnel.

To meet the requirements of NDAA FY 2008 Section 862(a), the Secretary of Defense
promulgated Interim Final Rule 32 CFR 159 2 on July 17, 2009, about a year after the deadline
for the regulation set by NDAA FY 2008 Section 862(a). Prior to the July 2009 effective date for
the Interim Final Rule, in May 2008 the U.S. Embassy in Baghdad (Embassy Baghdad) issued
policy directives to armed PSCs that addressed some of the concerns of NDAA FY 2008.
Although the Embassy Baghdad policy directives required serious incident reporting, it did not
require PSC reporting of the specific incidents required to be reported by NDAA FY 2008
Section 862(a)(2)(D), as shown above. In March 2009, the Combatant Commander of the
Multi-National Force-Iraq (MNF-I) updated its guidance to private security companies. These
directives required PSCs to report serious security incidents. Specifically, the May 2008
Embassy Baghdad policy directives provided PSCs with rules, regulations, and requirements for
operating in Iraq that were consistent with a December 2007 memorandum of agreement


1
  See Appendix IV for the key statutory requirements in Sections 862 and 864 of the National Defense Authorization
Act for FY 2008, as amended.
2
  See Appendix V for Interim Final Rule (32 CFR 159).



                                                                                                                1
between the Department of Defense (DOD) and the Department of State (DOS). The policy
directives required all PSCs to coordinate their private security detail movements with the
Embassy’s Regional Security Office’s (RSO) Tactical Operations Center and the Contractor
Operations Cell of the Multi-National Corps-Iraq. In addition, the policy directives required
PSCs to immediately activate their transponder alert system when a serious security incident
occurs and to establish two-way communication with the Contractor Operations Cell.

The policy directives also required PSCs to provide verbal or email notification of any serious
security incident to the RSO Tactical Operations Center and to the Contractor Operations Cell
as soon as practical, but not later than 1 hour after the incident. In addition, PSCs must submit
an initial formal incident report in writing within 4 hours of the incident. Finally, a follow-up
comprehensive written report of the events surrounding the incident must be provided within 96
hours, unless otherwise directed by the RSO.

From July 1, 2007, to June 30, 2009, USAID/Iraq maintained a portfolio of contracts and grants
with 12 implementing partners, who held 17 subcontracts for private security services in Iraq. 3
According to information provided by USAID/Iraq’s implementing partners, these 17
subcontracts for security services incurred cumulative expenditures of $483 million 4 as of
December 31, 2009. USAID/Iraq reported that the implementing partners incurred expenditures
of $2.1 billion over the same period. The information provided by the implementing partners
and USAID/Iraq shows that security services accounted for approximately 23 percent of the
implementing partners’ total costs.

In 2009, the Office of Inspector General/Iraq conducted an audit to determine whether
USAID/Iraq’s implementing partners were providing adequate oversight of their private security
service subcontractors in Iraq. 5 The audit included two recommendations, in which we advised
USAID/Iraq to require its implementing partners (1) to establish procedures to monitor the
reporting of serious security incidents 6 to ensure that such incidents are properly reported and
(2) to notify USAID/Iraq of all serious security incidents by including the mission in the reporting
of these incidents.

The purpose of this survey was (1) to determine the number of serious security incidents that
occurred between July 1, 2007, and June 30, 2009, and (2) to follow up on the effectiveness of
the mission’s and implementing partners’ actions in implementing our March 2009 audit report
recommendations.




3
  During this period, some USAID/Iraq contractors and grant recipients had more than one contract but only one
subcontractor for security services, some contracts expired during the period and new contracts were issued, and
one USAID recipient provided its own security services.
4
   We did not verify these expenditure totals.
5
  “Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq,” Audit Report No. E-267-09-002-P, March 4,
2009.
6
  According to DOS and DOD policy directives, the term ”serious security incident” involves the use of deadly force,
discharge of a weapon, an incident resulting in death, serious injury, or significant property damage (even if a weapon
is not involved), or other serious consequences. PSCs shall report serious incidents they observe, suspect, or
participate in, including aggressive personal behavior, road rage, criminal acts, traffic accidents, and any incident
believed to have possible strategic or operational impact. NDAA FY 2008 and Interim Final Rule 32 CFR 159 simply
refer to these as “incidents”.


                                                                                                                     2
                                   Security Incident Reporting Process 7


                              Private security
                             contractor relays
                               incident from
                            protective security
                            detail / static guard



      Serious security                                 Notification to
    incident notification                             Multi-National
    to prime contractor                                 Corps-Iraq,
                                                        Contractor
                                                      Operations Cell



      Notification to              Notification to Armed            Notification to U.S.
       USAID/Iraq’s                Contractor Oversight              Embassy RSO’s
    contracting officer’s                 Branch                    Tactical Operations
         technical                                                         Center
      representative



                   Serious security                   Notification to                 Notification to
                   incident report                  Government of Iraq,               USAID/Iraq’s
                   notification to                   Ministry of Interior          Director of Office of
                   USAID/Iraq email                                                  Acquisition and
                   mailbox                                                             Assistance




7
   The security incident reporting process in the diagram is based on the Embassy Baghdad May 2008 policy
directive, the Combatant Commander’s March 2009 guidance, and USAID guidance to its implementing partners.
We also verified these steps with the Coordinator for Armed Contractor Oversight in the Embassy Baghdad Regional
Security Office.


                                                                                                              3
SURVEY FINDINGS
USAID/Iraq’s implementing partners did not establish procedures to monitor reporting of serious
security incidents and did not consistently report incidents as required by our two prior audit
recommendations. Moreover, Embassy Baghdad has not issued instructions to incorporate the
statutory and regulatory requirements for PSC oversight described in the background section of
this report. However, USAID/Iraq has implemented numerous actions (1) to implement our two
prior audit recommendations from March 2009 and (2) to provide oversight and direction of the
use of private security contractors (PSCs) by its contractors and grantees. Nevertheless,
contractor and subcontractor implementation has not been fully effective. USAID/Iraq actions
include the following.

      Issued on March 15, 2009, a formal mission notice 8 to all contractors and grantees
       specifying procedures for the reporting of security incidents by PSCs.
      Amended all 16 active direct awards to contractors and grantees to include a new provision
       for serious security incident reporting requirements.
      Set up on March 16, 2009, a central email account as a repository of all serious security
       incident reports received from implementing partners.
      Added new requirements to the official designation letter for contracting officer’s technical
       representatives (COTRs), such as receiving and reviewing serious security incident reports,
       using the incident report as a monitoring tool, and seeking clarification from implementing
       partners on possible program impact.
      Ensured that all PSCs for USAID implementing partners have been registered with the
       Ministry of Interior of the Government of Iraq.
      Cochaired the Baghdad Joint Incident Review Board with DOD and DOS. The board’s
       purpose is to conduct joint reviews of incidents involving PSCs, indentify trends, and serve
       as a forum for exchanging information and coordinating efforts.
      Participated with DOD and DOS in the RSO-sponsored Armed Contractors Working Group,
       whose purpose is to review common security issues and lessons learned.
      Attended and gave presentations at quarterly conferences organized by DOD and DOS for
       Iraq PSCs.

Our March 2009 audit report recommended that USAID/Iraq require its implementing partners
(1) to establish procedures to monitor the reporting of serious security incidents and (2) to notify
the mission of all serious security incidents. Despite USAID’s efforts, Recommendation 1 has
not been implemented by implementing partners, and Recommendation 2 has not been
consistently implemented. None of USAID/Iraq’s implementing partners have established
documented internal procedures to monitor the reporting of security incidents to ensure that
such incidents are properly reported. In general, the implementing partners perceived that the
amendments to their contract or grant agreement with USAID/Iraq had fulfilled the requirement
to establish procedures.       Nevertheless, contractor and subcontract implementation of
USAID/Iraq’s guidance has not been fully effective. The weaknesses include:


8
    Mission Notice 09-03-001.


                                                                                                  4
    Incomplete reporting of security incidents to USAID and the Contractor Operations Cell of
     the Multi-National Force-Iraq.

    Incomplete records of security incidents by implementing partners.

In addition to issues with contractor and subcontractor implementation, and despite clear
guidance, the majority of USAID/Iraq’s own COTRs were not aware of their responsibilities. In
addition, the Embassy Baghdad May 2008 policy directive, which is still in use, does outline
conditions for reporting but does not explicitly require PSC reporting of the specific incidents
required to be reported by NDAA FY 2008 or 32 CFR 159. Below is our discussion of these
issues, along with a description of the 94 documented serious security incidents that occurred
over the 2 years from July 1, 2007, to June 30, 2009.

Partners Reported 94 Security Incidents
During the 2 years from July 1, 2007, to June 30, 2009, 94 serious security incidents were
documented and reported by USAID/Iraq implementing partners and their PSCs.                As
summarized in Table 1, two implementing partners (Research Triangle Institute and
International Relief and Development) accounted for 72 (74 percent) of the 94 serious incident
reports. Security services for the 12 USAID/Iraq prime contractors and grantees were provided
through 6 private security subcontractors and 1 cooperative agreement recipient. 9 Appendix III
provides details of the 94 security incident reports.

            Table 1. Security Incident Reports From July 1, 2007, to June 30, 2009

                                                                                      Number of
                                                          Private Security
                 USAID/Iraq Implementer                                            Serious Security
                                                             Contractor
                                                                                   Incident Reports
    Cooperative Housing Foundation                     Unity Resources Group                2
    International Foundation for Electoral Systems     Garda World                          0
                                                       Armor Group/Unity
    Research Triangle Institute                                                           43
                                                       Resources Group
    BearingPoint                                       Garda World                         1
    Development Alternatives                           Garda World                         1
    International Business and Technical Consultants   Garda World                         0
    Louis Berger Group                                 SallyPort                           8
    Management Systems International                   SallyPort                           7
    AECOM International Development                    SallyPort                           1
    International Relief and Development               Sabre                              29
    Relief International                               Triple Canopy                       2
                                                       No security contractor;
    ACDI-VOCA                                                                               0
                                                       security is self-provided
                                           Total                                           94




9
 Some private security companies provided services to more than one USAID implementing partner, and one
USAID/Iraq implementer, ACDI-VOCA, provided its own security protection.


                                                                                                      5
As shown in Table 2, of the 94 security incident reports, the more significant categories were 23
incidents involving improvised explosive devices, 10 rockets, or missile attacks; 28 incidents
involving a weapon discharge; and 19 incidents involving vehicles or traffic access denied by
the Iraqi police.

                               Table 2. Security Incident Reports by Incident Type

                                 Improvised
                                                                  Negligent,     Traffic
                                  Explosive                                                            Off-Duty
                                                                  Accidental,   Accident    Armed
         USAID/Iraq               Device or    Weapon     Flare
                                                                       or          or      Robbery
                                                                                                        Injury,
        Implementer              Rockets or   Discharge   Shot                                        Abduction,
                                                                  Malfunction    Access    or Theft
                                   Missile                                                              Threat
                                                                  Discharge      Denial
                                   Attacks
    Cooperative Housing
                                      2            0         0          0          0           0           0
    Foundation
    International Foundation
                                      0            0         0          0          0           0           0
    for Electoral Systems
    Research Triangle
                                      5           17         6          6          7           1           1
    Institute
    BearingPoint                      1            0         0          0          0           0           0
    Development
                                      0            0         0          0          0           0           1
    Alternatives
    International Business &
                                      0            0         0          0          0           0           0
    Technical Consultants
    Louis Berger Group                0            5         1          0          1           0           1
    Management Systems
                                      4            0         0          0          2           0           1
    International
    AECOM International
                                      0            0         0          0          1           0           0
    Development
    International Relief and
                                      9            6         0          4          8           2           0
    Development
    Relief International              2            0         0          0          0           0           0
    ACDI-VOCA                         0            0         0          0          0           0           0

                       Total         23           28         7         10         19           3           4



Reporting of Security
Incidents to USAID/Iraq Was Incomplete
In response to our March 2009 “Audit of USAID/Iraq’s Oversight of Private Security Contractors
in Iraq,” USAID/Iraq issued a formal mission notice to all contractors and grantees specifying
procedures for the reporting of security incidents by PSCs. These procedures required
contractors and grantees (1) to establish procedures and to monitor the serious incident
reporting by their PSCs and (2) to inform the mission of any and all serious security incidents.
In addition, the mission amended all direct awards to contractors and grantees to include a new
provision for “serious incident reporting requirements.” These reporting requirements stated
that PSCs must:

    Provide notification, verbally or by email, of any serious incident to the RSO Tactical
     Operation Center and to the Contractor Operations Cell not later than 1 hour after the
     incident.


10
   The term ”improvised explosive device” (IED) includes vehicle-borne IED, vehicle-carried IED, victim-detonated
IED, and remote-controlled IED. The difference between “vehicle borne” and “vehicle carried” is that a “vehicle
borne” IED is generally suicidal, whereas a “vehicle carried” IED is generally not suicidal.


                                                                                                                   6
    Submit an initial formal incident report in writing within 4 hours to the prime
     contractor/recipient, USAID/Iraq, the RSO Tactical Operation Center, and the Contractor
     Operations Cell.

    Provide a follow-up comprehensive written report of events within 96 hours to the prime
     contractor/recipient, the RSO Tactical Operation Center, and USAID/Iraq.

In addition, in May 2008, Embassy Baghdad issued policy directives to armed PSCs and, in
March 2009, the Multi-National Force-Iraq (MNF-I) issued guidance to PSCs. These directives
require serious incident reporting, as described in the USAID/Iraq mission notice.

During the period April to June 2009, 11 PSCs did not always report serious security incidents to
USAID/Iraq. For example, records at implementing partners and their PSCs showed nine
security incidents reported. Records at the Contractor Operations Cell and the Armed
Contractor Oversight Branch showed 11 security incidents, and records at the USAID/Iraq
mailbox showed 7 incidents. However, each source should show the same number of reported
incidents. Table 3 provides the number of security incident reports from each source for the
3-month period following the issuance of new mission guidance in March 2009.

                    Table 3. Security Incident Reports, April 1–June 30, 2009

                                      Reports at          Reports at Contractor             Reports at
     USAID/Iraq Implementer
                                   Private Security      Operations Cell or Armed           USAID/Iraq
            Partners
                                     Contractors       Contractors Oversight Branch          Mailbox
     Cooperative Housing
                                          0                               1                       0
     Foundation
     International Foundation
                                          0                               0                       0
     for Electoral Systems
     Research Triangle
                                          3                               2                       2
     Institute
     BearingPoint/Deloitte                0                               0                       0
     Development Alternatives             1                               1                       0
     International Business
     and Technical                        0                               0                       0
     Consultants
     Louis Berger                         0                               0                       0
     AECOM                                0                               0                       0
     Management Systems
                                          1                               1                       1
     International
     International Relief and
     Development                          4                              6                        4
     Relief International                 0                              0                        0
     ACDI-VOCA                            0                              0                        0
                           Total          9                             11                        7




11
   We reviewed these 3 months because the period was subsequent to the March 2009 USAID/Iraq mission notice to
all the contractors and grantees specifying procedures for the reporting of security incidents by PSCs.


                                                                                                            7
In a more recent example in February 2010, one private security contractor reported six security
incidents in its monthly threat report to USAID/Iraq. However, during the same interval, only two
incidents were reported to USAID/Iraq’s mailbox.

The disparity in reporting happened for two reasons. First, almost all of USAID/Iraq’s
implementing partners relied on their PSCs to report and maintain records of their security
incidents. Only one partner had custody of its security incident reports and was able to provide
records of them. Second, implementing partner staffs do not always understand reporting
procedures. For example, one implementing partner stated that he sends security incident
reports only to the RSO Tactical Operations Center and thought the RSO had the responsibility
to forward the reports to USAID/Iraq. In another case, a security incident involving the negligent
discharge of a weapon was not reported to USAID/Iraq. A USAID COTR learned of the incident
when the Embassy’s RSO asked about it. USAID/Iraq ultimately obtained a copy of the incident
report only after the COTR had requested it. As noted earlier, none of USAID/Iraq’s
implementing partners had established documented internal procedures to monitor the reporting
of security incidents to ensure that such incidents are properly reported.

Implementing partners did not always provide sufficient oversight of their PSCs with respect to
incident reporting. This lack of monitoring led to reporting deficiencies and missing security
incident reports. Because of USAID/Iraq’s ineffective implementation of our March 2009
recommendations, we are restating our original recommendation and adding a requirement for
the mission to verify implementing partners’ actions.

      Recommendation 1. We recommend that USAID/Iraq require its implementing partners
      to establish procedures to monitor the reporting of security incidents to ensure that such
      incidents are properly reported in accordance with Embassy and USAID guidance and
      verify that each implementing partner has completed this corrective action.

      Recommendation 2. We recommend that USAID/Iraq provide training for the
      implementing partners to coordinate and reinforce roles and responsibilities and to
      address control weaknesses in security incident reporting requirements.

Records of Security Incidents Were Incomplete
The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that internal controls and all transactions and other significant events need
to be clearly documented and that the documentation should be readily available for
examination. 12 A serious security incident qualifies as a significant event.

In response to our March 2009 audit, USAID/Iraq noted that in addition to GAO standards, its
new procedures will require the partners at a minimum to (1) ensure that they receive a copy of
all serious security incident reports issued by their PSC; (2) maintain detailed records (e.g.,
copies of incident reports) documenting all reported incidents to facilitate monitoring; (3) review
applicable procedural guidance to gain a clear understanding of the current prescribed
procedures for reporting serious security incidents; and (4) regularly review their PSC’s actual
reporting procedures to ensure that they are consistent with those current and prescribed by the
U.S. Embassy. USAID/Iraq’s March 2009 mission notice and the award amendments stipulate
that the prime contractor/recipient must ensure that all records are maintained on file.


12
     GAO/AIMD-00-21.3.1 (November 1999), page 15


                                                                                                   8
None of USAID/Iraq’s implementing partners were able to fully account for all serious security
incident reports. Of 10 implementing partners, one (Research Triangle Institute) had security
incident reports on file. However, even this implementer had only incomplete records. For
instance, from July 1, 2007, to June 30, 2009, this implementer had 39 security incident reports
on file, while its PSC had 21 security incident reports on file for the same period.

The implementing partners were not able to account for all security incident reports because
they had been relying on the PSCs to report and track the reports. Implementing partners felt
that since they were colocated with the PSCs, maintaining separate recordkeeping of security
incident reports would amount to duplicated efforts. However, implementing partners had no
controls in place to ensure that all security incident reports were accurately accounted for and
safeguarded. Furthermore, because implementing partners lacked complete records of security
incidents, they were not in a position to detect inaccuracies and inconsistencies associated with
the reports.

The prime contractors are responsible for ensuring that all subawardees are familiar with
relevant rules and regulations and comply with them. Complete and reliable reporting and
recordkeeping of security incidents is needed to ensure that security risks are promptly
addressed and that coordination of information with other U.S. Government agencies is not
hindered. Moreover, jurisdiction of private security contractors has been turned over to the Iraqi
Government. Therefore, it is critical that implementing partners and their PSCs adhere to
policies, procedures, and requirements.

    Recommendation 3. We recommend that USAID/Iraq require its implementing partners
    to establish and maintain records of reported serious security incidents and verify that
    each implementing partner has completed this corrective action.

USAID/Iraq Agreement or Contracting Officer’s Technical
Representatives Were Not Aware of Responsibilities
USAID’s Automated Directives System 302 and 303 require that the agreement or contracting
officer’s technical representative (AOTR or COTR) should monitor, review, and verify reports
and deliverables. In addition, according to their designation letter, the AOTR or COTR serves
as the mission’s point person for receiving and reviewing the serious incident reports. Further
duties include:

   Using the serious security incident report as a monitoring tool and seeking clarifications from
    the implementing partner on any impact an incident may have on the implementation of the
    program.
   Alerting the contracting or agreement officer if the incident has potential cost or scope
    limitations.
   Forwarding a copy of the serious security incident report and any perceived impact to the
    USAID/Iraq mailbox designated for these reports.

However, some COTRs stated that they had not been provided guidance about their oversight
responsibilities or their roles and responsibilities regarding security incident reporting
procedures. In addition, some COTRs did not understand that one of their responsibilities was



                                                                                                 9
to submit security incident reports that they received from the implementing partners or PSCs to
the USAID/Iraq mailbox.

The USAID/Iraq special mailbox for security incident reports is monitored by the deputy mission
director and the executive officer. However, if these technical representatives are not fulfilling
their duties as designated, the mailbox will not have a complete record of incidents for
consideration by mission management.

     Recommendation 4. We recommend that USAID/Iraq develop and provide training for
     its agreement/contracting officer’s technical representatives for their roles in receiving,
     reviewing, and forwarding serious security incident reports to the designated USAID/Iraq
     mailbox and other required security incident responsibilities.

Embassy Baghdad Has Not Issued
Instructions in Accordance With Regulation
Implementing Statutory Requirements
As discussed in the background section, the statutory scheme under NDAA FY 2008 Section
862(a) for oversight of all PSCs in combat operation areas is implemented by Interim Final Rule
32 CFR 159, promulgated in July 2009 by the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics 13 . Under 32 CFR 159.4(c), the Chief of Mission for Iraq
is responsible for issuing implementing instructions for non-DOD PSCs and their personnel
consistent with the standards set forth by the geographic Combatant Commander, and has the
option to instruct non-DOD PSCs and their personnel to follow the guidance and procedures
developed by the Geographic Combatant Commander and/or Subordinate Commander.
However, Embassy Baghdad has not issued instructions in accordance with 32 CFR 159.4(c)
and its May 2008 policy directive does not incorporate the statutory requirements for PSC
security incident reporting implemented by 32 CFR 159.

The Embassy Baghdad May 2008 policy directive, which is still in use, does outline conditions
for reporting including small arms fire, improvised explosive devices, indirect fire, PSC weapons
discharges, traffic accidents, rules for use of force incidents, and graduated force response
incidents. Nevertheless, the policy directive does not explicitly require PSC reporting of the
specific incidents required to be reported by NDAA FY 2008 Section 862(a)(2)(D) or 32 CFR
159.6(a)(1)(v) 14 . According to officials, the Embassy does plan to update the policy, but the
update was not intended to incorporate statutory and regulatory requirements.




13
   According to officials within the DOD’s Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, all US government private security contractors in Iraq are covered by Interim Final Rule 32 CFR 159. The
Department of State, DOD, and USAID are operating with the understanding that both Iraq and Afghanistan are
designated areas of combat operations for the purposes of this provision. DOD and the Department of State are
currently planning the transition to the Department of State as the lead agency in Iraq. When that happens, for the
purposes of this provision, Iraq will no longer be considered an area of combat operations. The policy and guidance
for the management of PSCs operating in Iraq after the transition are currently being developed. However, the
officials do not believe that there will be a significant change in requirements for the management and oversight of
PSCs.
14
   The categories of security incidents under NDAA FY 2008 and 32 CFR 159 are essentially the same. 32 CFR 159
splits the statute’s category, “persons are killed or injured, or property is destroyed, as a result of conduct by
contractor personnel”, into two categories: (1) persons are killed or injured and (2) property is destroyed.


                                                                                                                10
As earlier noted, reported security incidents from July 2007 to June 2009 identified 94 security
incidents. 65 of these 94 security incidents were among the incidents required to be reported by
NDAA FY 2008 Section 862(a)(2)(D) or 32 CFR 159.6(a)(1)(v). Table 4 distinguishes the 94
security incident reports according to these conditions, including an “other” category for reports
that did not specifically align with the statute’s conditions.

                    Table 4. Security Incident Reports by Statutory Conditions

      National Defense Authorization Act for Fiscal Year                           Number of Security
      2008 Conditions for Reporting Security Incidents                            Incidents Reported 15
     A weapon is discharged by personnel performing private                                    35
     security functions in an area of combat operations.
     Personnel performing private security functions in an area of                             13
     combat operations are killed or injured.
     Persons are killed or injured, or property is destroyed, as a                            8 16
     result of conduct by contractor personnel.
     A weapon is discharged against personnel performing private                               15
     security functions in an area of combat operations or
     personnel performing such functions believe a weapon was
     so discharged.
     Active, nonlethal countermeasures (other than the discharge                               22
     of a weapon) are employed by the personnel performing
     private security functions in an area of combat operations in
     response to a perceived immediate threat to such personnel.
     Other types of security incidents reported.                                               29
                                                                     Total                    122


In order to align PSC security incident reporting with statutory and regulatory requirements, the
audit is making the following recommendation.

     Recommendation 5. We recommend that USAID/Iraq request Embassy Baghdad to
     issue instructions for private security contractors and their personnel in accordance with
     Interim Final Rule 32 CFR 159.4(c).




15
   In some cases, the 94 security incident reports covered more than one condition as outlined in NDAA FY 2008, for
a total of 122 conditions.
16
   The 8 security incident reports from the column “persons are killed or injured, or property is destroyed, as a result
of conduct by contractor personnel” include 3 reports of persons injured, 1 report of a person killed (pedestrian killed
in collision with security convoy), 3 reports of property destroyed, and 1 report of both persons injured and property
destroyed.


                                                                                                                    11
EVALUATION OF MANAGEMENT
COMMENTS
The mission agreed with the four recommendations in the draft report and described actions
planned and taken to address each of the recommendations.

In regard to recommendations 1 and 3, the mission revised the language of the “Serious
Incident Reporting” (SIR) clause to be included in all mission award documents. Although it was
a positive response to the recommendation, revising the clause language does not address all
the elements of the recommendations—specifically, the need to verify that each implementing
partner has completed corrective actions. Page 9 of the report states that, due to ineffective
implementation of our March 2009 recommendations, we are restating our original
recommendation and adding a requirement for the mission to verify implementing partners’
actions. In our opinion, such verification is essential. Furthermore, the mission response does
not address when the language revisions will be incorporated into mission award documents.
Management decisions for Recommendations 1 and 3 can be made when the mission submits
an action plan, with target dates for completion, for implementing the recommendations
including verification of implementing partners’ actions.

In regard to recommendation 2, the mission stated that they will use the quarterly partner
meetings as the forum to provide information and guidance on the implementation of the
requirements contained in the SIR clause set forth in the mission’s response to
Recommendation 1. The management comments from the mission did not state a target date
for completion of the training, however, subsequently, the mission provided additional
documentation to support that the quarterly partner meetings were used as a forum to provide
information and guidance on the implementation of the requirements.            As a result,
Recommendation 2 has a management decision and final action.

In regard to recommendation 4, the mission included a specific section on the handling of
review, reporting, and distribution of the serious incident reports in its AOTR/COTR designation
letters, and in July 2010, the mission added a mandatory briefing with the Office of Acquisition
and Assistance to the mission’s check-in process for COTR/AOTRs. The briefing includes a
detailed review of the SIR reporting procedures and their delegated responsibilities. We
consider that a management decision has been made and final action taken for
Recommendation 4.

In regard to recommendation 5, we added a new recommendation subsequent to the mission
providing its response to the draft report, and consequently this recommendation does not have
a management decision.




                                                                                             12
                                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The purpose of this survey was (1) to determine the number of serious security incidents that
occurred between July 1, 2007, and June 30, 2009, and (2) to follow up on the effectiveness of
the mission’s and implementing partners’ actions in implementing the audit recommendations
from our “Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq,” issued March 4,
2009. This survey reviewed all incident reports from all 12 prime contractors and 6 private
security subcontractors that were active during any part of the period from July 1, 2007, to
June 30, 2009. According to information provided by USAID/Iraq’s implementing partners, the
17 subcontracts for security services during this period incurred expenditures of $483 million 17
as of December 31, 2009, from inception of each subcontract.

We examined significant internal controls at USAID/Iraq, the implementing partners, and the
private security contractors (PSCs). For USAID/Iraq, we examined:

      The March 2009 guidance to implementing partners.
      The mailbox established to receive security incident reports.
      Contracts and grant agreements (including amendments) with implementing partners to
       indentify security requirements.

For the implementing partners, in addition to the controls listed above, we examined:

      Subcontracts and subawards with PSCs.
      Sample security incident reports from time of occurrence and filing of first report, interim, and
       final report.
      Records of all security incident reports for accuracy and completeness.
      Internal written procedures to monitor and supervise PSCs.
      Sample monthly or weekly reports to USAID/Iraq Office of Acquisition and Assistance.

For the PSCs, in addition to the controls and records listed above, we examined:

      Logs and records of incidents reported from July 1, 2007, to June 30, 2009.
      Monthly threat reports to USAID/Iraq Office of Acquisition and Assistance.
      Rules and regulations for protective security detail and protective security specialists.
      Task order schedule and statement of work.




17
     We did not verify these expenditure totals.


                                                                                                     13
Survey fieldwork was performed from September 23, 2009, to March 30, 2010, at the USAID/Iraq
Mission and the in-country offices of eight prime contractors and their eight associated private
security subcontractors whose offices were located in Baghdad, Iraq. Four of these offices were
in the Red Zone, and four were in the International Zone. We also collected information from two
additional implementing partners at the USAID/Iraq offices outside of Baghdad, and we
collected information through electronic correspondence from two implementing partners whose
contracts had expired and no longer had a presence in-country.

Methodology
To determine the number of serious security incidents from July 1, 2007, to June 30, 2009, we
took the following actions:

   Interviewed USAID/Iraq Office of Acquisition and Assistance staff and contracting officer’s
    technical representatives (COTRs).
   Identified all PSCs used by USAID/Iraq’s prime contractors and grantees for the period
    under review.
   Visited and interviewed all active implementing partners and the PSCs.
   Obtained records of serious security incident reports from the implementing partners, the
    PSCs, the Armed Contractor Oversight Branch, the Contractor Operations Cell of the
    Multi-National Corps-Iraq, and USAID/Iraq’s mailbox; we then compared the data.
   Reviewed PSCs’ monthly threat reports.
   Reviewed all serious security incident reports for accuracy, completeness, and compliance
    with rules and regulations.
   Compared records received from each reporting entity to determine whether all serious
    security incident reports were reported to the appropriate authorities.
   Performed a walk-through of the PSCs’ operations, including observation of protective security
    detail dispatch movements and surveillance monitoring.
   Reviewed Department of Defense, Department of State, and USAID regulations and
    guidance on private security services in Iraq.

We also followed up on two prior audit recommendations, in which we had advised USAID/Iraq
to require its implementing partners (1) to establish procedures to monitor the reporting of
serious security incidents and (2) to notify the mission of all serious security incidents. In
addition to the actions described above, our assessment included whether the prime contractors
and their private security subcontractors had established controls, had communicated all the
serious security incident reports to USAID/Iraq management, and were using sample security
incident reports consistent with data requirements established in policy directives. We also
obtained an understanding of the guidance on security incident reporting requirements by
reviewing the following rules and regulations:

   Policy Directives for Armed Private Security Contractors in Iraq, U.S. Embassy in Baghdad,
    Iraq, May 2008.




                                                                                               14
    “Overarching FRAGO for Requirements, Communications, Procedures, Responsibilities for
     Control, Coordination, Management, and Oversight of Armed Contractors/DoD Civilians and
     Private Security Companies,” Fragmentary Order 09-109, Multi-National Force-Iraq,
     February–March 2009 updates. 18
    USAID/Iraq Mission Notice, “Private Security Contractors—Incident Reporting,” No.
     09-03-001, March 15, 2009.
    USAID/Iraq’s AOTR and COTR designations.
    USAID Automated Directives System, Chapters 302 and 303.
    Key Statutory Requirements in Sections 862 and 864 of the National Defense Authorization
     Act for Fiscal Year 2008, as amended
    32 CFR Part 159 Private Security Contractors Operating in Contingency Operations.




18
   Fragmentary Order 09-109, March 2009, replaced earlier orders. MNF-I FRAGO 09-109 is a revision of prior PSC
guidance that was required in the National Defense Authorization Acts of Fiscal Years 2008 and 2009 and was
committed to in earlier interagency agreements. The FRAGO is intended to apply equally to DOD and DOS PSCs by
virtue of the memorandum of agreement signed by the Departments on December 5, 2007.


                                                                                                            15
                                                                                    APPENDIX II



MANAGEMENT COMMENTS


                                                                                 August 29, 2010


MEMORANDUM
UNCLASSIFIED

TO:            Lloyd Miller, Office of the Inspector General/Iraq

FROM:          Alex Dickie, Mission Director /s/

SUBJECT:       Management Comments in Response to Draft Survey of Security Incidents
               Reported by Private Security Contractors of USAID/ Iraq’s Contractors
               and Grantees (Report Number E-267-10-00X-S)

On July 29, 2010, the Office of the Inspector General/Iraq (OIG/Iraq) transmitted its draft Survey
of Security Incidents Reported by Private Security Contractors of USAID/ Iraq’s Contractors and
Grantees (Report Number E-267-10-00X-S) (Tab A). The draft report contains four
recommendations:

   Recommendation 1. We recommend that USAID/Iraq require its implementing partners
   to establish procedures to monitor the reporting of security incidents to ensure that such
   incidents are properly reported in accordance with Embassy and USAID guidance and
   verify that each implementing partner has completed this corrective action.

   Recommendation 2. We recommend that USAID/Iraq provide training for the implementing
   partners to coordinate and reinforce roles and responsibilities and to address control
   weaknesses in security incident reporting requirements.

    Recommendation 3. We recommend that USAID/Iraq require its implementing partners to
   establish and maintain records of reported serious security incidents and verify that each
   implementing partner has completed this corrective action.

   Recommendation 4. We recommend that USAID/Iraq develop and provide training for
   its agreement/contracting officer’s technical representatives for their roles in receiving,
   reviewing, and forwarding serious security incident reports to the designated
   USAID/Iraq mailbox and other associated security incident responsibilities.



                                                                                                 16
Management Comments in Response to Recommendations 1 & 3:

The Mission concurs with Recommendations 1 and 3, and in response to the OIG’s previous
audit concerning management of contracts and grants such that implementing partners provided
adequate oversight of Private Security Contractors (PSC), USAID issued Mission Notice 09-03-
001 dated March 15, 2009 (Tab B) establishing procedures for the reporting of incidents by
PSCs.

Among these procedures was the establishment of a special requirement on the reporting of
Serious Incidents (SI) included via administrative modification in all Mission awards.

To facilitate more efficient and effective implementation of the procedures for monitoring the
reporting of serious incidents and maintaining records of the Serious Incident Reports (SIR),
USAID has revised the language of the SIR clause as reproduced verbatim below and will
include it in all Mission award documents.

       H.XX SERIOUS INCIDENT REPORTING

       Definitions:

       Private Security Contractor (PSC): A private company, and or its personnel that
       provides physical protection to or security for persons, places, buildings, facilities,
       supplies, or means of transportation.

       Contractors Operations Cell (CONOC): United States Forces-Iraq (USF-I) operated
       coordination center for all PSCs supporting/protecting USG funded operations in Iraq,
       and all follow-on entities performing the same function.

       Protective Security Specialist (PSS): An individual performing static or mobile security
       functions on a personnel protective security detail assignment, as authorized by contract.

       Protective Security Detail (PSD): A team of PSS personnel that provides physical
       protective services for the movement of protected persons and/or property.

       Static Guards: An individual who is providing security at facilities and/or check-points.

       Serious Incident (SI): An incident involving the use of deadly force, the discharge of a
       weapon (other than in training or into a clearing barrel) by a PSS or against a PSS, use of
       non-lethal countermeasures by a PSS, and/or an incident that resulted in death, serious
       injury, significant property damage (even if a weapon is not involved), or other serious
       consequences.

       Serious Incident Report (SIR): A comprehensive, formal written report of the events
       surrounding a SI. This report will document the SI based upon the notification and initial
       written incident report provided to the CONOC and any follow-up investigation.




                                                                                                 17
Reporting Requirements:

The following reporting requirements apply to all PSCs (including static guards). The
Prime contractor shall establish policies and procedures to ensure that:

(1) All PSD movements shall be coordinated through the United States Forces – Iraq
(USF-I) Contractor Operations Cell (CONOC), or any successor entity.

(2) The Prime contractor's PSCs provide notification, either verbal or in writing via
email, of any serious incident to the CONOC and the Prime – as soon as practical, but not
later than one hour after the incident. This notification must provide as many details
about the incident, as possible. PSCs must submit an initial written incident report
within 4 hours of the incident to the CONOC and the Prime. The initial written report
shall include the name of the company, where the incident occurred, the time when the
incident occurred, a brief description of the events leading up to the incident, and a point
of contact for the company.

(3) As soon as practical after the Prime is aware of a serious incident, but not later than
one hour after receiving the initial verbal or written report from the PSC or PSD, the
Prime shall inform the cognizant Contracting Officer’s Technical Representative (COTR)
or Agreement Officer’s Technical Representative (AOTR) of the incident verbally
followed by a confirming email to both. The Prime will send the PSC's initial written
incident report to the COTR or AOTR immediately upon receipt by the Prime.

(4) The Prime shall verify in the contract file that the initial (1 hour) notification and the
initial written incident report (4 hour) are appropriately disseminated to the CONOC (as
specified above) and sent to the COTR or AOTR as specified above.

(5) The SIR shall be provided with confirmed receipt to the CONOC and COTR or
AOTR within 96 hours. All further follow-up reports produced by the PSC will likewise
be submitted as soon as received with confirmed receipt to the CONOC and to the COTR
or AOTR.

(6) The SIRs received are reviewed by the Prime to determine whether they reveal any
special vulnerability or other conditions that require adjustment in project implementation
or other implications for the security of personnel and/or property. All vulnerabilities
identified shall be discussed with USAID and the PSC. This process shall be
documented in the contract file of the Prime and copied to the COTR or AOTR.

(7) All SIRs and associated documentation shall be maintained by the Prime in the
contract file for the life of the project. The prime shall also produce and maintain as a
separate comprehensive document a complete, accurate and up to date inventory of all
SIRs during the life of the project. The Prime shall make this file available to U.S.
Government investigators and/or auditors upon request.

(8) All incident reports will generally be reviewed by the Regional Security Office



                                                                                            18
       (RSO) and a follow-up investigation will be conducted by the RSO Force Investigations
       Unit (FIU) if required. The FIU will notify the prime, either directly or through the
       COTR, AOTR or the Contracting/Agreement Officer, of their need to conduct a full
       investigation as soon as that determination is made.

       (9) All sub-awardees are familiar with and comply with this provision (H.XX), all
       relevant Chief of Mission and US Military policies, rules and requirements, all additional
       USAID requirements and applicable Iraqi law.

Based upon the foregoing, USAID/Iraq requests OIG/Iraq’s concurrence that final action has
been taken on Recommendations 1 & 3.

Management Comments in Response to Recommendation 2:

The Mission concurs with Recommendation 2. The Mission will use the quarterly partner
meetings as the forum to provide information and guidance on the implementation of the
requirements contained in the “Serious Incident Reporting” clause set forth above. The meetings
will also be used to review the procedures for maintaining and reporting SIs and to identify
partner security concerns in order to discuss ways to counter vulnerabilities that may be shared
by more than one partner. Additionally, this will serve a compliance monitoring function by
verifying that partners are keeping SIR records in the manner prescribed, that communication
between the PSCs, CONOC, PRIME and COTR/AOTR has been conducted as prescribed, and
that each partner has taken corrective action as appropriate.

Based upon the foregoing, USAID/Iraq requests OIG/Iraq’s concurrence that final action has
been taken on Recommendation 2.


Management Comments in Response to Recommendation 4:

The Mission concurs with Recommendation 4. Mission Notice 09-03-001 establishes the
responsibilities of COTR/AOTRs regarding receiving, reviewing and forwarding SIRs to the
designated USAID/Iraq mailbox. Furthermore, the COTR/AOTR Designation Letters issued by
the Contracting Officer for each of the Mission’s awards include a specific section on how
COTRs/AOTRs are to handle review, reporting and distribution of SIRs, which mirrors the
procedures established in the Mission Notice. By signing the Designation Letter, the
COTRs/AOTRs acknowledge and take responsibility for following those procedures. As an
additional measure to reinforce COTR/AOTR knowledge, in July 2010, USAID/Iraq added a
mandatory briefing with OAA to the Mission’s check-in process for COTR/AOTRs. This
briefing includes detailed review of the SIR reporting procedure and a reminder of their
delegated responsibilities in that regard.

Based upon the foregoing, USAID/Iraq requests OIG/Iraq’s concurrence that final action has
been taken on Recommendation 4.




                                                                                               19
                                                                                  APPENDIX III



                      List of 94 Serious Security Incidents
                                                                                   Injury
     Date of                                            Description of               or
No. Incident       Contractor/ Subcontractor              Incident                Damage
                  Research Triangle Institute-Unity                               No
      7/30/2007
 1                Resources Group (RTI-URG)           Flare shots
       8/5/2007                                                                   Yes
 2                RTI-URG                             Weapon discharge
       8/6/2007                                                                   No
 3                RTI-URG                             Warning shot
       8/7/2007                                                                   No
 4                RTI-URG                             Weapon discharge
       8/7/2007                                                                   No
 5                RTI-URG                             Indirect-fire attack
      8/13/2007                                                                   Yes
 6                RTI-URG                             Accidental discharge
 7    8/31/2007   RTI-URG                             Theft of weapon             No
 8     9/7/2007   RTI-URG                             Weapon discharge            No
 9     9/8/2007   RTI-URG                             Vehicle hijacking           No
10     9/9/2007   RTI-URG                             Weapon discharge            Yes
11    9/14/2007   RTI-URG                             Vehicle accident            No
12    9/24/2007   RTI-URG                             Warning shots               No
13    10/9/2007   RTI-URG                             Weapon discharge            Yes
                                                      Improvised explosive
     11/13/2007                                                                   No
14                RTI-URG                             device
                                                      Improvised explosive
     11/17/2007                                                                   No
15                RTI-URG                             device
16   11/29/2007   RTI-URG                             Negligent discharge         No
17   12/23/2007   RTI-URG                             Warning shots               No
18   12/27/2007   RTI-URG                             Warning shot                No
19     1/7/2008   RTI-URG                             Vehicle accident            No
20    1/16/2008   RTI-URG                             Vehicle accident            No
21    1/29/2008   RTI-URG                             Warning shot                No
22    1/29/2008   RTI-URG                             Warning shot                No
23    1/31/2008   RTI-URG                             Warning shots               No
24    2/13/2008   RTI-URG                             Flare and warning shots     No
25    2/16/2008   RTI-URG                             Warning shot                No
26    2/29/2008   RTI-URG                             Collision with parked car   No
27    3/17/2008   RTI-URG                             Warning shots               No
28    3/24/2008   RTI-URG                             Warning Shots               No
                                                      Improvised explosive
      3/27/2008                                                                   Yes
29                RTI-URG                             device
30    3/28/2008   RTI-URG                             Gunfight exchange           Unknown
31    4/10/2008   RTI-URG                             Warning shot                No
32    4/12/2008   RTI-URG                             Nonbattle off-duty injury   Yes
33    5/20/2008   RTI-URG                             Flare shots                 No
34    6/10/2008   RTI-URG                             Stray bullet                No
35    9/12/2008   RTI-URG                             Negligent discharge         No
36   12/11/2008   RTI-URG                             Accidental discharge        No
37     1/3/2008   RTI-URG                             Flare shot                  No
38    10/2/2008   RTI-URG                             Flare shots                 No
39    10/6/2008   RTI-URG                             Traffic accident            No
40    12/1/2008   RTI-URG                             Traffic accident            No




                                                                                            20
                      List of 94 Serious Security Incidents
                                                                                          Injury
     Date of                                                  Description of                or
No. Incident       Contractor/ Subcontractor                    Incident                 Damage
41    4/16/2009   Research Triangle Institute-Armor Group   Warning shot                 No
                                                            Explosive formed
      5/14/2009                                                                          Yes
42                Research Triangle Institute-Armor Group   projectile attack
43    6/14/2009   Research Triangle Institute-Armor Group   Disabling shot               No
                  International Relief Development-Sabre    Celebrative shooting
      7/16/2007                                                                          No
44                International Security (IRD-Sabre)        spree
45   11/14/2007   IRD-Sabre                                 Gunfight exchange            Yes
46    12/9/2007   IRD-Sabre                                 Weapon discharge             No
                                                            Victim-detonated
     12/16/2007                                             improvised explosive         Yes
47                IRD/Sabre                                 device
48    2/19/2008   IRD-Sabre                                 Rocket-missile attack        No
49     3/8/2008   IRD-Sabre                                 Negligent discharge          Yes
50    3/19/2008   IRD-Sabre                                 Negligent discharge          Yes
51    3/24/2008   IRD-Sabre                                 Rollover accident            Yes
                                                            Vehicle-borne
      4/15/2008                                             improvised explosive         Unknown
52                IRD-Sabre                                 device
53    6/30/2008   IRD-Sabre                                 Armed robbery                No
54     8/6/2008   IRD-Sabre                                 Vehicle accident             Yes
55    10/7/2008   IRD-Sabre                                 Armed robbery                Yes
                                                            Victim-detonated
      10/8/2008                                             improvised explosive         Yes
56                IRD-Sabre                                 device
                                                            Malfunctioning weapon
     10/20/2008                                                                          No
57                IRD-Sabre                                 discharge
                                                            Improvised explosive
      11/3/2008                                                                          No
58                IRD-Sabre                                 device
                                                            Improvised explosive
     11/23/2008                                                                          No
59                IRD-Sabre                                 device
60   12/12/2008   IRD-Sabre                                 Stray-projectile injury      Yes
61    1/14/2009   IRD-Sabre                                 Small-arms fire              No
                                                            Unexploded ordnance
      1/17/2009                                                                          No
62                IRD-Sabre                                 under car
                                                            Small-arms-fire
      1/29/2009                                                                          Yes
63                IRD-Sabre                                 exchange
64     2/5/2009   IRD-Sabre                                 Small-arms fire              No
65    2/10/2009   IRD-Sabre                                 Vehicle accident             No
66    2/27/2009   IRD-Sabre                                 Vehicle accident             Yes
67     3/9/2009   IRD-Sabre                                 Indirect-fire attack         No
68    3/19/2009   IRD-Sabre                                 Collision with pedestrian    Yes
69     4/3/2009   IRD-Sabre                                 Traffic accident             No
70    5/25/2009   IRD-Sabre                                 Weapon discharge             No
                                                            Iraqi Army traffic control
      6/10/2009                                                                          No
71                IRD-Sabre                                 incident
72    6/10/2009   IRD-Sabre                                 Traffic incident             Yes
                  Louis Berger Group-SallyPort Global
      9/28/2007                                                                          No
73                Services (LBG-SallyPort)                  Guard abduction
74   11/12/2007   LBG-SallyPort                             Warning shot                 No
75   11/27/2007   LBG-SallyPort                             Assassination                Yes
76   12/30/2007   LBG-SallyPort                             Warning shots                No




                                                                                                   21
                     List of 94 Serious Security Incidents
                                                                                           Injury
     Date of                                                   Description of                or
No. Incident      Contractor/ Subcontractor                      Incident                 Damage
77   2/14/2008   LBG-SallyPort                               Warning shots                No
                 Louis Berger Group-SallyPort Global
     4/16/2008                                                                            No
78               Services (LBG-SallyPort)                    Warning shot
79   7/20/2008   LBG-SallyPort                               Collision accident           No
80    8/3/2008   LBG-SallyPort                               Flare shot                   No
                                                             Vehicle-borne
     7/25/2007   Management Systems International-           improvised explosive         Yes
81               SallyPort Global Services (MSI-SallyPort)   device
                                                             Vehicle-borne
     9/16/2007                                               improvised explosive         No
82               MSI-SallyPort                               device
83   9/27/2007   MSI-SallyPort                               Guard abduction              No
                                                             Vehicle-borne
     3/16/2008                                               improvised explosive         No
84               MSI-SallyPort                               device
85   8/27/2008   MSI-SallyPort                               Collision accident           Yes
86   9/22/2008   MSI-SallyPort                               Collision accident           No
                                                             Improvised explosive
     4/20/2009                                                                            No
87               MSI-SallyPort                               device
                 Cooperative Housing Foundation-Unity        Improvised explosive
      2/3/2009                                                                            Yes
88               Resources Group                             device attack
                 Cooperative Housing Foundation-Unity        Improvised explosive
     3/11/2009                                                                            No
89               Resources Group                             device attack
                                                             Improvised explosive
      3/3/2009                                                                            Yes
90               Relief International-Triple Canopy          device
                                                             Improvised explosive
      4/5/2009                                                                            Yes
91               Relief International-Triple Canopy          device
                 AECOM International Development-            Iraqi Army traffic control
     3/19/2009                                                                            No
92               SallyPort                                   incident
93    5/4/2008   BearingPoint-Garda World                    Rocket attack                Yes
                 Development Alternatives International-
     6/23/2009                                                                            No
94               Garda World                                 Death threat




                                                                                                    22
                                                                                          APPENDIX IV



Key Statutory Requirements in
Sections 862 and 864 of the National
Defense Authorization Act for Fiscal
Year 2008, as Amended
Sec. 862. Contractors performing private security functions in areas of combat
operations. 1

(a) Regulations on contractors performing private security functions.--

    (1) In general.—Not later than 120 days after the date of the enactment of this Act
    [Jan. 28, 2008], the Secretary of Defense, in coordination with the Secretary of State,
    shall prescribe regulations on the selection, training, equipping, and conduct of
    personnel performing private security functions under a covered contract in an area of
    combat operations.

    (2) Elements.—The regulations prescribed under subsection (a) shall, at a minimum,
    establish—

     (A) a process for registering, processing, accounting for, and keeping appropriate
     records of personnel performing private security functions in an area of combat
     operations;

     (B) a process for authorizing and accounting for weapons to be carried by, or
     available to be used by, personnel performing private security functions in an area of
     combat operations;

     (C) a process for the registration and identification of armored vehicles, helicopters,
     and other military vehicles operated by contractors performing private security
     functions in an area of combat operations;

     (D) A process under which contractors are required to report all incidents, and
     persons other than contractors are permitted to report incidents, in which—

     (i) a weapon is discharged by personnel performing private security functions in an
     area of combat operations;

     (ii) personnel performing private security functions in an area of combat operations
     are killed or injured;



1
 Public Law 110-181, div. A, title VIII, subtitle F, §§ 862 and 864, Jan. 28, 2008, 122 Stat. 254-259; as
amended by Public Law 110-417, div. A, title VIII, §§ 853, 854(a), (d), Oct. 14, 2008, 122 Stat. 4544; and
Public Law 111-84, div. A, title VIII, § 813(a) to (c), Oct. 28, 2009, 123 Stat. 2406. Codified at 10 U.S.C.
2302 note.


                                                                                                        23
 (iii) persons are killed or injured, or property is destroyed, as a result of conduct by
 contractor personnel;

 (iv) a weapon is discharged against personnel performing private security functions
 in an area of combat operations or personnel performing such functions believe a
 weapon was so discharged; or

 (v) active, non-lethal countermeasures (other than the discharge of a weapon) are
 employed by the personnel performing private security functions in an area of
 combat operations in response to a perceived immediate threat to such personnel;

 (E) A process for the independent review and, if practicable, investigation of—

 (i) incidents reported pursuant to subparagraph (D); and

 (ii) incidents of alleged misconduct by personnel performing private security
 functions in an area of combat operations;

 (F) requirements for qualification, training, screening (including, if practicable,
 through background checks), and security for personnel performing private security
 functions in an area of combat operations;

 (G) Guidance to the commanders of the combatant commands on the issuance of—

 (i) orders, directives, and instructions to contractors performing private security
 functions relating to equipment, force protection, security, health, safety, or relations
 and interaction with locals;

 (ii) predeployment training requirements for personnel performing private security
 functions in an area of combat operations, addressing the requirements of this
 section, resources and assistance available to contractor personnel, country
 information and cultural training, and guidance on working with host country
 nationals and military; and

 (iii) rules on the use of force for personnel performing private security functions in an
 area of combat operations;

 (H) a process by which a commander of a combatant command may request an
 action described in subsection (b)(3); and

 (I) a process by which the training requirements referred to in subparagraph (G)(ii)
 shall be implemented.

(3) Availability of orders, directives, and instructions.—The regulations prescribed
under subsection (a) shall include mechanisms to ensure the provision and availability
of the orders, directives, and instructions referred to in paragraph (2)(G)(i) to
contractors referred to in that paragraph, including through the maintenance of a single
location (including an Internet website, to the extent consistent with security
considerations) at or through which such contractors may access such orders,
directives, and instructions.



                                                                                       24
(b) Contract clause on contractors performing private security functions.—

 (1) Requirement under FAR.—Not later than 180 days after the date of the
 enactment of this Act [Jan. 28, 2008], the Federal Acquisition Regulation issued in
 accordance with section 25 of the Office of Federal Procurement Policy Act (41 U.S.C.
 421) shall be revised to require the insertion into each covered contract (or, in the case
 of a task order, the contract under which the task order is issued) of a contract clause
 addressing the selection, training, equipping, and conduct of personnel performing
 private security functions under such contract.

 (2) Clause requirement.—The contract clause required by paragraph (1) shall
 require, at a minimum, that the contractor concerned shall—

   (A) Comply with regulations prescribed under subsection (a) [of this note], including
   any revisions or updates to such regulations, and follow the procedures established
   in such regulations for—

   (i) registering, processing, accounting for, and keeping appropriate records of
   personnel performing private security functions in an area of combat operations;

   (ii) authorizing and accounting of weapons to be carried by, or available to be used
   by, personnel performing private security functions in an area of combat operations;

   (iii) registration and identification of armored vehicles, helicopters, and other military
   vehicles operated by contractors and subcontractors performing private security
   functions in an area of combat operations; and

   (iv) The reporting of incidents in which—

   (I) a weapon is discharged by personnel performing private security functions in an
   area of combat operations;

   (II) personnel performing private security functions in an area of combat operations
   are killed or injured; or

   (III) persons are killed or injured, or property is destroyed, as a result of conduct by
   contractor personnel;

   (B) Comply with and ensure that all personnel performing private security functions
   under such contract are briefed on and understand their obligation to act in
   accordance with—

   (i) qualification, training, screening (including, if practicable, through background
   checks), and security requirements established by the Secretary of Defense for
   personnel performing private security functions in an area of combat operations;

   (ii) applicable laws and regulations of the United States and the host country, and
   applicable treaties and international agreements, regarding the performance of the
   functions of the contractor;

   (iii) orders, directives, and instructions issued by the applicable commander of a


                                                                                          25
   combatant command relating to equipment, force protection, security, health, safety,
   or relations and interaction with locals; and

   (iv) rules on the use of force issued by the applicable commander of a combatant
   command for personnel performing private security functions in an area of combat
   operations; and

   (C) cooperate with any investigation conducted by the Department of Defense
   pursuant to subsection (a)(2)(E) by providing access to employees of the contractor
   and relevant information in the possession of the contractor regarding the incident
   concerned.

 (3) Noncompliance of personnel with clause.—The contracting officer for a covered
 contract may direct the contractor, at its own expense, to remove or replace any
 personnel performing private security functions in an area of combat operations who
 violate or fail to comply with applicable requirements of the clause required by this
 subsection. If the violation or failure to comply is a gross violation or failure or is
 repeated, the contract may be terminated for default.

 (4) Applicability.--The contract clause required by this subsection shall be included in
 all covered contracts awarded on or after the date that is 180 days after the date of the
 enactment of this Act [Jan. 28, 2008]. Federal agencies shall make best efforts to
 provide for the inclusion of the contract clause required by this subsection in covered
 contracts awarded before such date.

 (5) Inspector General report on pilot program on imposition of fines for
 noncompliance of personnel with clause.—Not later than March 30, 2008, the
 Inspector General of the Department of Defense shall […deleted for the purposes of
 this appendix]

(c) Areas of combat operations.—

 (1) Designation.—The Secretary of Defense shall designate the areas constituting an
 area of combat operations for purposes of this section by not later than 120 days after
 the date of the enactment of this Act [Jan. 28, 2008].

 (2) Particular areas.—Iraq and Afghanistan shall be included in the areas designated
 as an area of combat operations under paragraph (1).

 (3) Additional areas.—The Secretary may designate any additional area as an area
 constituting an area of combat operations for purposes of this section if the Secretary
 determines that the presence or potential of combat operations in such area warrants
 designation of such area as an area of combat operations for purposes of this section.

 (4) Modification or elimination of designation.—The Secretary may modify or cease
 the designation of an area under this subsection as an area of combat operations if the
 Secretary determines that combat operations are no longer ongoing in such area.

(d) Exception.—The requirements of this section shall not apply to contracts entered
into by elements of the intelligence community in support of intelligence activities.



                                                                                       26
Sec. 864. Definitions and other general provisions.

(a) Definitions.—In this subtitle [this note]:

 (1) Matters relating to contracting.--The term ‘matters relating to contracting’, with
 respect to contracts in Iraq and Afghanistan, means all matters relating to awarding,
 funding, managing, tracking, monitoring, and providing oversight to contracts and
 contractor personnel.

 (2) Contract in Iraq or Afghanistan.—The term ‘contract in Iraq or Afghanistan’
 means a contract with the Department of Defense, the Department of State, or the
 United States Agency for International Development, a subcontract at any tier issued
 under such a contract, a task order or delivery order at any tier issued under such a
 contract, a grant, or a cooperative agreement (including a contract, subcontract, task
 order, delivery order, grant, or cooperative agreement issued by another Government
 agency for the Department of Defense, the Department of State, or the United States
 Agency for International Development), if the contract, subcontract, task order, delivery
 order, grant, or cooperative agreement involves worked performed in Iraq or
 Afghanistan for a period longer than 30 days.

 (3) Covered contract.—The term ‘covered contract’ means—

   (A) a contract of a Federal agency for the performance of services in an area of
   combat operations, as designated by the Secretary of Defense under subsection (c)
   of section 862 [of this note];

   (B) a subcontract at any tier under such a contract;

   (C) a task order or delivery order issued under such a contract or subcontract;

   (D) a grant for the performance of services in an area of combat operations, as
   designated by the Secretary of Defense under subsection (c) of section 862 [of this
   note]; or

   (E) a cooperative agreement for the performance of services in such an area of
   combat operations.

 (4) Contractor.—The term ‘contractor’, with respect to a covered contract, means—

   (A) in the case of a covered contract that is a contract, subcontract, task order, or
   delivery order, the contractor or subcontractor carrying out the covered contract;

   (B) in the case of a covered contract that is a grant, the grantee; and

   (C) in the case of a covered contract that is a cooperative agreement, the recipient.

  (5) Contractor personnel.—The term ‘contractor personnel’ means any person
  performing work under contract for the Department of Defense, the Department of
  State, or the United States Agency for International Development, in Iraq or
  Afghanistan, including individuals and subcontractors at any tier.



                                                                                       27
 (6) Private security functions.—The term ‘private security functions’ means activities
 engaged in by a contractor under a covered contract as follows:

   (A) Guarding of personnel, facilities, or property of a Federal agency, the contractor
   or subcontractor, or a third party.

   (B) Any other activity for which personnel are required to carry weapons in the
   performance of their duties.

 (7) Relevant committees of Congress.—The term ‘relevant committees of Congress’
 means each of the following committees:

   (A) The Committees on Armed Services of the Senate and the House of
   Representatives.

   (B) The Committee on Homeland Security and Governmental Affairs of the Senate
   and the Committee on Oversight and Government Reform of the House of
   Representatives.

   (C) The Committee on Foreign Relations of the Senate and the Committee on
   Foreign Affairs of the House of Representatives.

   (D) For purposes of contracts relating to the National Foreign Intelligence Program,
   the Select Committee on Intelligence of the Senate and the Permanent Select
   Committee on Intelligence of the House of Representatives.

(b) Classified information.—Nothing in this subtitle [this note] shall be interpreted to
require the handling of classified information or information relating to intelligence
sources and methods in a manner inconsistent with any law, regulation, executive order,
or rule of the House of Representatives or of the Senate relating to the handling or
protection of such information.”




                                                                                      28
                                                                             APPENDIX V



Federal Register / Vol. 74, No. 136 /
Friday, July 17, 2009 / Rules and
Regulations (Interim Final Rule, 32
CFR Part 159)
DEPARTMENT OF DEFENSE
Office of the Secretary
32 CFR Part 159
[DOD–2008–OS–0125/RIN 0790–AI38]
Private Security Contractors (PSCs) Operating in Contingency Operations
AGENCY: Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, DoD.
ACTION: Interim final rule.

SUMMARY: This part establishes policy, assigns responsibilities and provides
procedures for the regulation of the selection, accountability, training, equipping, and
conduct of personnel performing private security functions under a covered contract
during contingency operations. It also assigns responsibilities and establishes
procedures for incident reporting, use of and accountability for equipment, rules for the
use of force, and a process for administrative action or the removal, as appropriate, of
PSCs and PSC personnel. For the Department of Defense, this IFR supplements DoD
Instruction 3020.41, ‘‘Contractor Personnel Authorized to Accompany the U.S. Armed
Forces,’’ which provides guidance for all DoD contractors operating in contingency
operations.

This part is of critical importance. It is being published as an Interim Final Rule because
there is insufficient policy and guidance regulating the actions of DoD and other
governmental PSCs and their movements in the operational area. It will procedurally
close existing gaps in the oversight of Private Security Contractors (PSCs), ensure
compliance with laws and regulations pertaining to Inherently Governmental functions,
and ensure proper performance by armed contractors. The expansion of troops in
Afghanistan will result in a corresponding increase in the number of PSCs performing in
that Area of Operations. This part is required to ensure implementation of necessary
guidance for all U.S.G. PSCs across the CENTCOM area of responsibility. Further, the
publication of this IFR is required to meet the mandate of Section 862 of the 2008
National Defense Authorization Act. The Congress has expressed continuing concern
that regulations for the oversight of PSCs are not yet in place.

DATES: This rule is effective July 17, 2009. Comments must be received by August 31,
2009.

ADDRESSES: You may submit comments, identified by docket number and/or RIN



                                                                                        29
number and title, by any of the following methods:
•        Federal Rulemaking Portal: http:// www.regulations.gov. Follow the instructions
for submitting comments.
•        Mail: Federal Docket Management System Office, 1160 Defense Pentagon,
Washington, DC 20301–1160.
  Instructions: All submissions received must include the agency name and docket
number or Regulatory Information Number (RIN) for this Federal Register document.
The general policy for comments and other submissions from members of the public is
to make these submissions available for public viewing on the Internet at
http://www.regulations.gov as they are received without change, including any personal
identifiers or contact information.
FOR FURTHER INFORMATION CONTACT: Jeffrey Taylor, (703) 692–3032.

SUPPLEMENTARY INFORMATION: This Interim Final Rule is required to meet the
mandate of Section 862 of the FY 2008 National Defense Authorization Act. Section 862
of the 2008 NDAA lays out two requirements:
(i) That the Secretary of Defense, in coordination with the Secretary of State shall
prescribe regulations on the selection, training, equipping, and conduct of personnel
performing private security functions under a covered contract in an area of combat
operations; and
(ii) That the FAR shall be revised to require the insertion into each covered contract of a
contract clause addressing the selection, training, equipping, and conduct of personnel
performing private security functions under such contract.

  This Interim Final Rule meets requirement (i). There will be a separate and
subsequent Federal Register action to meet requirement (ii) to update the FAR.

Executive Order 12866, ‘‘Regulatory Planning and Review’’
  It has been certified that 32 CFR part 159 does not:
  (1) Have an annual effect on the economy of $100 million or more or adversely affect
in a material way the economy; a section of the economy; productivity; competition;
jobs; the environment; public health or safety; or State, local, or tribal governments or
communities;
(2) Create a serious inconsistency or otherwise interfere with an action taken or planned
by another Agency;
(3) Materially alter the budgetary impact of entitlements, grants, user fees, or loan
programs, or the rights and obligations of recipients thereof; or
(4) Raise novel legal or policy issues arising out of legal mandates, the President’s
priorities, or the principles set forth in this Executive Order.

Public Law 104–121, ‘‘Congressional Review Act’’ (5 U.S.C. 801)
It has been determined that 32 CFR part 159 is not a ‘‘major’’ rule under 5 U.S.C. 801,
enacted by Public Law 104– 121, because it will not result in an annual effect on the
economy of $100 million or more; a major increase in costs or prices for consumers,
individual industries, Federal, State, or local government agencies, or geographic
regions; or significant adverse effects on competition, employment, investment,
productivity, innovation, or on the ability of United States-based enterprises to
compete with foreign-based enterprises in domestic and export markets.
Section 202, Public Law 104–4, ‘‘Unfunded Mandates Reform Act’’



                                                                                        30
It has been certified that 32 CFR part 159 does not contain a Federal mandate that may
result in expenditure by State, local and tribal governments, in aggregate, or by the
private sector, of $100 million or more in any one year.
Public Law 96–354, ‘‘Regulatory Flexibility Act’’ (5 U.S.C. 601)
It has been certified that 32 CFR part 159 is not subject to the Regulatory Flexibility Act
(5 U.S.C. 601) because it would not, if promulgated, have a significant economic impact
on a substantial number of small entities. This rule will apply only to a specific sector of
defense industry and a limited number of small entities.

Public Law 96–511, ‘‘Paperwork Reduction Act’’ (44 U.S.C. Chapter 35)
It has been certified that 32 CFR part 159 does impose reporting or recordkeeping
requirements under the Paperwork Reduction Act of 1995. These requirements have
been approved by OMB and assigned OMB Control Numbers 0704–0460,
‘‘Synchronized Predeployment and Operational Tracker (SPOT) System’’ and 0704–
0461, ‘‘Qualification to Possess Firearms or Ammunition.’’

Executive Order 13132, ‘‘Federalism’’
It has been certified that 32 CFR part 159 does not have federalism implications, as set
forth in Executive Order 13132. This rule does not have substantial direct effects on:
(1) The States;
(2) The relationship between the National Government and the States; or
(3) The distribution of power and responsibilities among the various levels of
Government.

List of Subjects in 32 CFR Part 159
Contracts, Security measures.
■ Accordingly 32 CFR Part 159 is added to read as follows:
PART 159—PRIVATE SECURITY                   CONTRACTORS           OPERATING        IN
CONTINGENCY OPERATIONS
Sec.
159.1 Purpose.
159.2 Applicability and scope.
159.3 Definitions.
159.4 Policy.
159.5 Responsibilities.
159.6 Procedures.
Authority: Public Law 110–181; Pub. L. 110–417.
§ 159.1. Purpose.

This part establishes policy, assigns responsibilities and provides procedures for the
regulation of the selection, accountability, training, equipping, and conduct of personnel
performing private security functions under a covered contract. It also assigns
responsibilities and establishes procedures for incident reporting, use of and
accountability for equipment, rules for the use of force, and a process for administrative
action or the removal, as appropriate, of PSCs and PSC personnel.



                                                                                          31
§ 159.2. Applicability and scope.
  This part:
(a) Applies to:
(1) The Office of the Secretary of Defense, the Military Departments, the Office of the
Chairman of the Joint Chiefs of Staff and the Joint Staff, the Combatant Commands, the
Office of the Inspector General of the Department of Defense, the Defense Agencies,
the DoD Field Activities, and all other organizational entities in the Department of
Defense (hereafter referred to as the ‘‘DoD Components’’).
(2) The Department of State and other Federal agencies insofar as it implements the
requirements of section 862 of Public Law 110–181. Specifically, in areas of operations
which require enhanced coordination of PSC and PSC personnel working for
Government (U.S.G.) agencies, the Secretary of Defense may designate such areas as
areas of combat operations for the limited purposes of this part. In such an instance, the
standards established in accordance with this part would, in coordination with the
Secretary of State, expand from covering only DoD PSCs and PSC personnel to cover
all U.S.G.-funded PSCs and PSC personnel operating in the designated area.
(b) Prescribes policies applicable to all:
(1) DoD PSCs and PSC personnel performing private security functions during
contingency operations outside the United States.
(2) USG-funded PSCs and PSC personnel performing private security functions in an
area of combat operations, as designated by the Secretary of Defense.

§ 159.3. Definitions.
  Unless otherwise noted, these terms and their definitions are for the purpose of this
part.
  Area of combat operations. An area of operations designated as such by the Secretary
of Defense for the purpose of this part, when enhanced coordination of PSCs working for
U.S.G. agencies is required.
  Contingency operation. A military operation that is either designated by the Secretary
of Defense as a contingency operation or becomes a contingency operation as a matter
of law (10 U.S.C. 101(a)(13)). It is a military operation that: a. Is designated by the
Secretary of Defense as an operation in which members of the Armed Forces are or
may become involved in military actions, operations, or hostilities against an enemy of
the United States or against an opposing force; or b. Is created by definition of law.
Under 10 U.S.C. 101(a)(13)(B), a contingency operation exists if a military operation
results in the (1) call-up to (or retention on) active duty of members of the uniformed
Services under certain enumerated statutes (10 U.S.C. 688, 12301(a), 12302, 12304,
12305, 12406, or 331–335); and (2) the call-up to (or retention on) active duty of
members of the uniformed Services under any other (non-enumerated) provision of law
during war or national emergency declared by the President or Congress. These may
include humanitarian or peacekeeping operations or other military operations or
exercises.
  Contractor. The contractor, subcontractor, grantee, or other party carrying out the
covered contract.
  Covered contract. A DoD contract for performance of services in an area of
contingency operations or a contract of a non-DoD Federal agency for performance of
services in an area of combat operations, as designated by the Secretary of Defense;
A subcontract at any tier under such a contract; or



                                                                                       32
A task order or delivery order issued under such a contract or subcontract.
Also includes contracts or subcontracts funded under grants and sub-grants by a
Federal agency for performance in an area of combat operations as designated by the
Secretary of Defense. Excludes temporary arrangements entered into by non-DoD
contractors or grantees for the performance of private security functions by individual
indigenous personnel not affiliated with a local or expatriate security company. Such
arrangements must still be in compliance with local law.
Private security functions. Activities engaged in by a contractor under a covered
contract as follows:
(1) Guarding of personnel, facilities, designated sites, or property of a Federal agency,
the contractor or subcontractor, or a third party. 1
(2) Any other activity for which personnel are required to carry weapons in the
performance of their duties. For the DoD, DoDI Instruction 3020.41, ‘‘Contractor
Personnel Authorized to Accompany the U.S. Armed Forces,’’ 2 prescribes policies
related to personnel allowed to carry weapons for self defense.
PSC. During contingency operations ‘‘PSC’’ means a company employed by the DoD
performing private security functions under a covered contract. In a designated area of
combat operations, the term ‘‘PSC’’ expands to include all companies employed by
U.S.G. agencies performing private security functions under a covered contract.
PSC personnel. Any individual performing private security functions under a covered
contract.

§ 159.4. Policy.
(a) Consistent with the requirements of paragraph (a)(2) of section 862 of Public Law
110–181, the selection, training, equipping, and conduct of PSC personnel including the
establishment of appropriate processes shall be coordinated between the DoD and the
Department of State.
(b) Geographic Combatant Commanders will provide tailored PSC guidance and
procedures for the operational environment in their Area of Responsibility (AOR) in
accordance with this part, the Federal Acquisition Regulation (FAR) 3 and the Defense
Federal Acquisition Regulation Supplement (DFARS). 4
(c) In a designated area of combat operations, the relevant Chief of Mission will be
responsible for developing and issuing implementing instructions for non-DoD PSCs and
their personnel consistent with the standards set forth by the geographic Combatant
Commander in accordance with paragraph (b) of this section. The Chief of Mission has
the option to instruct non DoD PSCs and their personnel to follow the guidance and
procedures developed by the Geographic Combatant Commander and/or Subordinate
Commander.
(d) The requirements of this part shall not apply to contracts entered into by elements of
the intelligence community in support of intelligence activities.

§ 159.5. Responsibilities.


1
  Contractors performing private security functions are not authorized to perform inherently governmental
functions. In this regard, they are limited to a defensive response to hostile acts or demonstrated hostile
intent.
2
  Available at http://www.dtic.mil/whs/directives/ corres/pdf/302041p.pdf.
3
  Published in Title 48 of the Code of Federal Regulations.
4
  Published in Title 48 of the Code of Federal Regulations.



                                                                                                       33
(a) The Assistant Deputy Under Secretary of Defense for Program Support, under the
authority, direction, and control of the Deputy Under Secretary of Defense for Logistics
and Materiel Readiness, shall monitor the registering, processing, and accounting of
PSC personnel in an area of contingency operations.
(b) The Director, Defense Procurement and Acquisition Policy, under the authority,
direction, and control of the Deputy Under Secretary of Defense for Acquisition and
Technology (DUSD(AT)), shall ensure that the DFARS and (in consultation with the
other members of the FAR Council) the FAR provide appropriate guidance and contract
clauses consistent with this part and paragraph (b) of section 862 of Public Law
110-181.
(c) The Director, Defense Business Transformation Agency, under the authority,
direction, and control of the Deputy Chief Management Officer of the Department of
Defense, through the DUSD(AT), shall ensure that information systems effectively
support the accountability and visibility of contracts, contractors, and specified
equipment associated with private security functions.
(d) The Chairman of the Joint Chiefs of Staff shall ensure that joint doctrine is consistent
with the principles established by DoD Directive 3020.49 ‘‘Orchestrating, Synchronizing,
and Integrating Program Management of Contingency Acquisition Planning and Its
Operational Execution,’’ 5 DoD Instruction 3020.41, ‘‘Contractor Personnel Authorized to
Accompany the U.S. Armed Forces,’’ and this part.
(e) The geographic Combatant Commanders in whose AOR a contingency operation is
occurring, and within which PSCs and PSC personnel perform under covered contracts,
shall:
(1) Provide guidance and procedures, as necessary and consistent with the principles
established by DoD Directive 3020.49, ‘‘Orchestrating, Synchronizing, and Integrating
Program Management of Contingency Acquisition Planning and Its Operational
Execution,’’ DoD Instruction 3020.41, ‘‘Contractor Personnel Authorized to Accompany
the U.S. Armed Forces,’’ 6 and this part, for the selection, training, accountability and
equipping of such PSC personnel and the conduct of PSCs and PSC personnel within
their AOR. Individual training and qualification standards shall meet, at a minimum, one
of the Military Departments’ established standards. Within a geographic Combatant
Command, Subordinate Commanders shall be responsible for developing and issuing
implementing procedures as warranted by the situation, operation, and environment, in
consultation with the relevant Chief of Mission in designated areas of combat operations.
(2) Through the Contracting Officer, ensure that PSC personnel acknowledge, through
their PSC, their understanding and obligation to comply with the terms and conditions of
their covered contracts.
(3) Issue written authorization to the PSC identifying individual PSC personnel who are
authorized to be armed. Rules for the use of force, developed in accordance with
Chairman of the Joint Chief of Staff Instruction 3121.01B, ‘‘Standing Rules of
Engagement/Standing Rules for the Use of Force for U.S. Forces,’’ 7 shall be included
with the written authorization.



5
  Available from http://www.dtic.mil/whs/ directives/corres/pdf/302040p.pdf.
6
  Available from http://www.dtic.mil/whs/ directives/corres/html/302041.htm.
7
   CJCSI 3121.01B provides guidance on the standing rules of engagement (SROE) and establishes
standing rules for the use of force (SRUF) for DOD operations worldwide. This document is classified secret.
CJCSI 3121.01B is available via Secure Internet Protocol Router Network at http://js.smil.mil If the requester
is not an authorized user of the classified network, the requester should contact Joint Staff J–3 at 703–614–
0425.


                                                                                                          34
(4) Ensure that the procedures, orders, directives and instructions prescribed § 159.6(a)
of this part are available through a single location (to include an Internet Web site,
consistent with security considerations and requirements).
(f) The Heads of the DoD Components shall:
(1) Ensure that all private security-related requirement documents are in compliance with
the procedures listed in § 159.6 of this part and the guidance and procedures issued by
the geographic Combatant Command,
(2) Ensure private security-related contracts contain the appropriate clauses in
accordance with the applicable FAR clause and include additional mission-specific
requirements as appropriate.

§ 159.6. Procedures.
(a) Standing Combatant Command Guidance and Procedures. Each geographic
Combatant Commander shall develop and publish guidance and procedures for PSCs
and PSC personnel operating during a contingency operation within their AOR,
consistent with applicable law; this part; applicable Military Department publications; and
other applicable DoD issuances to include DoD Directive 3020.49, ‘‘Orchestrating,
Synchronizing, and Integrating Program Management of Contingency Acquisition
Planning and Its Operational Execution,’’ DFARS, DoD Directive 2311.01E, ‘‘DoD Law of
War Program,’’ 8 DoD 5200.8–R, ‘‘Physical Security Program,’’ 9 CJCSI 3121.01B,
‘‘Standing Rules of Engagement/Standing Rules for the Use of Force for U.S. Forces,’’
and DoD Directive 5210.56, ‘‘Use of Deadly Force and the Carrying of Firearms by DoD
Personnel Engaged in Law Enforcement and Security Duties.’’ 10 The guidance and
procedures shall:
(1) Contain, at a minimum, procedures to implement the following processes, and
identify the organization responsible for managing these processes:
(i) Registering, processing, accounting for and keeping appropriate records of PSCs and
PSC personnel in accordance with DoD Instruction 3020.41, ‘‘Contractor Personnel
Authorized to Accompany the U.S. Armed Forces.’’
(ii) PSC verification that PSC personnel meet all the legal, training, and qualification
requirements for authorization to carry a weapon in accordance with the terms and
conditions of their contract and host country law. Weapons accountability procedures will
be established and approved prior to the weapons authorization.
(iii) Arming of PSC personnel. Requests for permission to arm PSC personnel shall be
reviewed on a case-by-case basis by the appropriate Staff Judge Advocate to the
geographic Combatant Commander (or a designee) to ensure there is a legal basis for
approval. The request will then be approved or denied by the geographic Combatant
Commander or a specifically identified designee, no lower than the flag officer level.
Requests to arm non-DOD PSC personnel shall be reviewed and approved in
accordance with § 159.4(c) of this part. Requests for permission to arm PSC personnel
shall include:
(A) A description of where PSC personnel will operate, the anticipated threat, and what
property or personnel such personnel are intended to protect, if any.




8
  Available at http://www.dtic.mil/whs/directives/ corres/html/231101.htm.
9
  Available at http://www.dtic.mil/whs/directives/ corres/pdf/520008r.pdf.
10
   Available at http://www.dtic.mil/whs/ directives/corres/html/521056.htm.



                                                                                        35
(B) A description of how the movement of PSC personnel will be coordinated through
areas of increased risk or planned or ongoing military operations, including how PSC
personnel will be rapidly identified by members of the U.S. Armed Forces.
(C) A communication plan, to include a description of how relevant threat information will
be shared between PSC personnel and U.S. military forces and how appropriate
assistance will be provided to PSC personnel who become engaged in hostile situations.
DoD contractors performing private security functions are only to be used in accordance
with DoD Instruction 1100.22, ‘‘Guidance for Determining Workforce Mix,’’ 11 that is, they
are limited to a defensive response to hostile acts or demonstrated hostile intent.
(D) Documentation of individual training covering weapons familiarization and
qualification, rules for the use of force, limits on the use of force including whether
defense of others is consistent with host nation Status of Forces Agreements or local
law, the distinction between the rules of engagement applicable to military forces and the
prescribed rules for the use of force that control the use of weapons by civilians, and the
Law of Armed Conflict.
(E) Written acknowledgment by the PSC and its individual PSC personnel, after
investigation of background of PSC personnel by the contractor, verifying such
personnel are not prohibited under U.S. law to possess firearms.
(F) Written acknowledgment by the PSC and individual PSC personnel that:
(1) Potential civil and criminal liability exists under U.S. and local law or host nation
Status of Forces Agreements for the use of weapons. 12
(2) Proof of authorization to be armed must be carried by each PSC personnel.
(3) PSC personnel may possess only U.S.G.-issued and/or -approved weapons and
ammunition for which they have been qualified according to paragraph (a)(1)(iii)(E) of
this section.
(4) PSC personnel were briefed and understand limitations on the use of force.
(5) Authorization to possess weapons and ammunition may be revoked for non-
compliance with established rules for the use of force.
(6) PSC personnel are prohibited from consuming alcoholic beverages or being under
the influence of alcohol while armed.
(iv) Registration and identification in the Synchronized Predeployment and Operational
Tracker (or its successor database) of armored vehicles, helicopters, and other vehicles
operated by PSC personnel.
(v) Reporting alleged criminal activity or other incidents involving PSCs or PSC
personnel by another company or any other person. All incidents involving the following
shall be reported and documented:
(A) A weapon is discharged by an individual performing private security functions;
(B) An individual performing private security functions is killed or injured in the
performance of their duties;
(C) A person other than an individual performing private security functions is killed or
injured as a result of conduct by PSC personnel;
(D) Property is destroyed as a result of conduct by a PSC or PSC personnel;
(E) An individual performing private security functions has come under attack including
in cases where a weapon is discharged against an individual performing private security


11
  Available at http://www.dtic.mil/whs/ directives/corres/pdf/110022p.pdf.
12
   This requirement is specific to arming procedures. Such written acknowledgement should not be
construed to limit civil and criminal liability to conduct arising from ‘‘the use of weapons.’’ PSC personnel
could be held criminally liable for any conduct that would constitute a federal offense (see MEJA, 18 USC
3261(a)).


                                                                                                         36
functions or personnel performing such functions believe a weapon was so discharged;
or
(F) Active, non-lethal counter-measures (other than the discharge of a weapon) are
employed by PSC personnel in response to a perceived immediate threat in an incident
that could significantly affect U.S. objectives with regard to the military mission or
international relations.
(vi) The independent review and, if practicable, investigation of incidents reported
pursuant to paragraphs (a)(1)(v)(A) through (a)(1)(v)(F) of this section and incidents of
alleged misconduct by PSC personnel.
(vii) Identification of ultimate criminal jurisdiction and investigative responsibilities, where
conduct of U.S.G.-funded PSCs or PSC personnel are in question, in accordance with
applicable laws to include a recognition of investigative jurisdiction and coordination for
joint investigations (i.e., other U.S.G. agencies, host nation, or third country agencies),
where the conduct of PSCs and PSC personnel is in question.
(viii) A mechanism by which a commander of a combatant command may request an
action by which PSC personnel who are non-compliant with contract requirements are
removed from the designated operational area.
(ix) Interagency coordination of administrative penalties or removal, as appropriate, of
non-DoD PSC personnel who fail to comply with the terms and conditions of their
contract, as is applicable to this part.
(x) Implementation of the training requirements contained below in paragraph (a)(2)(ii) of
this section.
(2) Specifically cover:
(i) Matters relating to authorized equipment, force protection, security, health, safety, and
relations and interaction with locals in accordance with DoD Instruction 3020.41,
‘‘Contractor Personnel Authorized to Accompany the U.S. Armed Forces.’’
(ii) Predeployment training requirements addressing, at a minimum, the identification of
resources and assistance available to PSC personnel as well as country information and
cultural training, and guidance on working with host country nationals and military
personnel.
(iii) Rules for the use of force and graduated force procedures.
(iv) Requirements and procedures for direction, control and the maintenance of
communications with regard to the movement and coordination of PSCs and PSC
personnel, including specifying interoperability requirements. These include coordinating
with the Chief of Mission, as necessary, private security operations outside secure bases
and U.S. diplomatic properties to include movement control procedures for all
contractors, including PSC personnel.
(b) Availability of Guidance and Procedures. The geographic Combatant Commander
shall ensure the guidance and procedures prescribed in paragraph
(a) of this section are readily available and accessible by PSCs and their personnel (e.g.,
on a Web page and/or through contract terms), consistent with security considerations
and requirements.
(c) Subordinate Guidance and Procedures. The Subordinate Commander, in
consultation with the Chief of Mission, will issue guidance and procedures implementing
the standing combatant command publications specified in paragraph (a) of this section,
consistent with the situation and operating environment.
(d) Consultation and Coordination. The Chief of Mission and the geographic Combatant
Commander/Subordinate Commander shall make every effort to consult and coordinate
responses to common threats and common concerns related to oversight of the conduct
of U.S.G.-funded PSC and their personnel. The Memorandum of Agreement between



                                                                                             37
the Department of Defense and Department of State on U.S.G. Private Security
Contractors 13 shall provide the framework for the development of guidance and
procedures without regard to the specific locations identified therein.

Dated: July 14, 2009.

Patricia L. Toppings,
OSD Federal Register Liaison Officer, Department of Defense.
[FR Doc. E9–17059 Filed 7–16–09; 8:45 am]
BILLING CODE 5001–06–P




13
     Available at http://www.acq.osd.mil/log/PS/p_ vault.html.



                                                                           38
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel.: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig
